fas
|

2311 Douglas Street CO KLE
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
IN RE HAROLD PERSAUD

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5283 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of April, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Renae. 0. Lose”

Notary Public

 

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
‘My Comm. Exp. September 5, 2023

Oude Kh. Gale

Affiant 40852.
